 WEAKNESSES IDENTIFIED DURING THE 

FY 2010 FEDERAL INFORMATION SECURITY 

       MANAGEMENT ACT REVIEW 



             Report Number: 11-06 

          Date Issued: January 28, 2011 

              u.s. Small Business Administration
              Office Inspector General              Memorandum
     To: 	   Paul T. Christy                                           Date:   January 28, 2011
             Chief Information Officer

             lSI original signed

  From: 	    Peter L. McClintock 

             Deputy Inspector General 


Subject: 	   Report on the Audit of SBA's Compliance with the Federal Information Security
             Management Act for FY 2010
             Report No. 11-06

              The Federal Information Security Management Act (FISMA) of 2002 provides a
              comprehensive framework for ensuring the effectiveness of information security
              controls over information resources that support Federal operations and assets.
              The Act requires (1) agencies to implement a set of minimum controls to protect
              Federal information and information systems; and (2) the agencies' Office of
              Inspector General (OIG) annually perform independent evaluations of the
              information security program and practices of that agency to determine its
              effectiveness. Finally, the Act directs the National Institute of Standards and
              Technology (NIST) to develop standards and guidelines for implementing its
              requirements in coordination with the Office of Management and Budget (OMB).

              On April 21, 2010 OMB issued Memorandum 10-15, FY 2010 Reporting
              Instructions for the Federal Information System Management Act and Agency
              Privacy Management; providing instructions for agency's to meet their FY 2010
              reporting requirements under FISMA. This memorandum requires IGs to evaluate
              agency compliance in ten information security program areas: (1) Certification and
              Accreditation (C&A); (2) Configuration Management; (3) Security Incident
              Management; (4) Security Training; (5) Remediation/Plan of Actions and
              Milestones (POA&M); (6) Remote Access; (7) Identity Management; (8)
              Continuous Monitoring; (9) Contractor Oversight; and (10) Contingency Plans.
              The objective of our FY 2010 review was to evaluate the effectiveness of SBA's
                                                                                                                2


computer security program and practices in these areas in accordance with
applicable Federal requirements 1 .

To assess SBA's compliance in the OMB information security program areas, we
reviewed agency documentation, interviewed program management officials, and
performed reliability tests on agency-provided reports. Additionally, we selected
judgmental samples of agency systems to conduct detailed analysis of their
compliance with C&A, POA&M, and contingency planning requirements.

During the course of our FISMA review, we received an anonymous complaint
alleging that contractors located in the IT security division were performing work
on behalf of the agency without having obtained the necessary security clearances.
The complaint also stated that these contractors had access to sensitive SBA
information. In response to this allegation, we requested and reviewed SBA
security clearance documentation for IT security contractors and interviewed
Agency officials responsible for clearing contractors and granting network access.

We performed the audit work between August 20 10 and November 20 lOin
accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States.

BACKGROUND

FISMA requires OIGs to perform annual independent evaluations of their
agency's information security program and practices to determine its
effectiveness. Since 2003, we have performed annual reviews of SBA's
compliance with FISMA standards and guidelines established by NIS T and
reported our results to OMB. Previous OIG reviews identified and reported
weaknesses in SBA compliance with requirements over information system
configuration management, the development and management of ISAs,
certification and accreditation of major information systems, and the identification
and management of system vulnerabilities (i.e. POA&M). Additionally, during
the course of our FY 2008 FISMA review, we determined that SBA did not
consistently ensure that contractors were properly vetted prior to granting them
access to sensitive SBA systems and data.

In 2004, we conducted an audit ofSBA's Continuity of Operations Planning
(COOP) Program. This audit identified significant deficiencies with SBA's
continuity of operation and disaster response capabilities. Specifically, the audit


1   Applicable Federal guidance include those provided in NIST Federal Information Processing Standards (FIPS) and
     Special Publications (SP) as well as OMB Circulars and Memoranda.
                                                                                   3


found that SBA IT system disaster recovery plans were not adequate to ensure the
recovery of its mission critical systems. As a result, SBA stated that it would
develop and test recovery plans for its mission critical systems and revise the plans
accordingly.

In FY 2009, SBA changed its IT security contractor and awarded a contract to
Glacier Technologies, LLC to provide IT security support and information
assurance measures and controls in accordance with FISMA, OMB Circular A­
BO, Appendix III, Security ofFederal Automated Information Resources, and
relevant SBA Standard Operating Procedures (SOPs).

RESULTS IN BRIEF

Our audit identified that significant improvements are needed in critical computer
security areas in order for SBA to fully meet the requirements set forth in FISMA
and OMB Circular A-130. We found that SBA did not maintain a complete and
accurate inventory of system interfaces as required by FISMA. SBA also had not
obtained interconnection security agreements (ISAs) for all systems that connect
to other systems, as required by OMB Circular A-130. Only 5 of 26 systems with
external interconnections currently had an ISA. ISAs are necessary to document
the controls the system receiving SBA data must provide in order to protect its
confidentiality, integrity and availability. Without interface inventories and ISAs,
SBA cannot specify what data is transmitted from system to system and whether
appropriate controls and adequate security are afforded to SBA data residing in
external systems.

SBA did not have comprehensive and integrated configuration management
policies and procedures, hardware and software inventories, and baseline
configurations for all its systems, as required by FISMA and NIST guidance. As a
result, systems may not be appropriately configured to provide adequate security
over SBA information.

We also found that SBA did not properly identify, implement and assess baseline
security controls as part of its system C&A process. Federal guidance requires
that information systems be categorized according to risk and baseline controls
selected and implemented based on their risk categorization. We found a system
with baseline controls that were insufficient for its risk category; a high-risk
system with its controls assessed as if it were a moderate-risk system; and a
system certified and accredited using baseline controls from outdated and less
stringent NIST guidance. As a result, SBA mission critical information systems
may have inadequate and ineffective security controls, and control failures may
not be appropriately identified for corrective action.
                                                                                     4


SBA did not track all the POA&M vulnerability information that OMB requires,
adhere to planned remediation dates, and update the plan in a timely manner. As a
result, the agency is unable to link security costs to security performance, cannot
ensure that all weaknesses are included in the POA&M, and may remove un­
remediated weaknesses from the POA&M, exposing the agency's systems to
significant risk.

Our audit also disclosed that SBA did not develop or could not provide evidence it
had developed system disaster recovery plans for [FOIA ex. 2]
Additionally, during FY 2010, SBA did not test the disaster recovery plans for
[FOIA ex. 2]          As a result, SBA may be unable to restore its mission critical
and major information systems within acceptable timeframes after a disaster.

During the course of our FISMA review, we received an anonymous complaint
alleging that contractors located in the IT security division had access to sensitive
information and were performing work on behalf of the agency without having
obtained the necessary security clearances. We found that 17 of the 32 contractors
we reviewed began working for SBA prior to the completion of their preliminary
security clearance. As a result, SBA exposed itself to increased risk of
unauthorized use and/or disclosure of sensitive and personally identifiable
information.

Finally, several of our findings relating to FISMA noncompliance fall within the
responsibilities of SBA' s IT security contractor. An agency analysis of its
contract with Glacier Technologies, LLC determined that many of the contract
requirements were not being satisfied. While SBA has initiated corrective actions
to ensure that its IT security contractor meets the provisions of its contract,
continued oversight is needed to improve SBA' s compliance with FISMA and
other federal IT security requirements.

In order to address the deficiencies identified, we recommended that SBA: (1)
update its major systems list to include all interfaces and obtain written ISAs for
every system interconnection; (2) establish a program at SBA to manage, control
and monitor system interconnections throughout their lifecycle; (3) develop
configuration management policies and procedures; (4) develop and maintain a
centralized inventory of all agency hardware and software; (5) develop and
document baseline configurations for each information system; (6) revise the SBA
C&A procedures to reflect the risk management framework approach established
in NIST SP 800-37, Rev. 1 and current POA&M guidance; (7) re-evaluate
 [FOIA ex. 2]        and[FOIA ex. 2Jsecurity controls at the appropriate risk category
using current NIST guidance; (8) modify the POA&M reporting tool to comply
with OMB requirements; (9) develop and test system disaster recovery plans
annually for major systems and implement corrective actions based on test results;
                                                                                       5


(10) enforce the agency SOP for contractor background investigations and perform
periodic reviews to ensure compliance; and (11) conduct quality reviews of
deliverables and quarterly reviews of IT security contractor performance. SBA
management expressed concurrence with our recommendations.

RESULTS

SBA Has Not Developed a Complete Inventory of System Interconnections
and Interconnection Security Agreements Have Not Been Established

SBA did not maintain a complete inventory of system interfaces to its major
systems as required by FISMA. We reviewed seven SBA information systems
and determined that interconnections identified in the C&A documentation were
not included in SBA's interconnection inventory. Further, 13 of the
interconnections not included in the interconnection inventory were to systems
that are outside of the agency's control.

SBA could not provide evidence that it has established ISAs with all
interconnected systems as required in OMB Circular A-130. We requested copies
of ISAs for all SBA systems. In response, SBA only provided the audit team with
four ISAs covering two major systems. However, SBA's interconnection
inventory indicates that there are 24 systems with interconnections that require
ISAs.

FISMA requires that an agencies major system inventory "shall include an
identification of the interfaces between each system and all other systems and
networks, including those not operated by or under the control of the agency."
Additionally, OMB Circular A-130 Appendix III requires prior written
management authorization for system interconnections. For major applications,
the Circular requires that shared information be given a level of protection that is
comparable to the protection provided while residing within the source
application. The Circular also requires that for authorized interconnections,
controls be established consistent with NIST guidance.

Without a centralized management program for system interconnections, SBA
cannot ensure that all interconnections will be documented in an ISA and
necessary controls implemented, as required by Federal regulation. Additionally,
without an inventory of interconnections and corresponding ISAs, SBA is not in a
position to know which data is transmitted among its systems and to external
systems; whether appropriate risk-based controls are applied to the data in the
external systems; and whether external entities agree to adhere to SBA's rules of
behavior.
                                                                                    6




SBA Had Not Developed Comprehensive Configuration Management Policies
and Procedures and Had Not Inventoried or Established Baseline
Configurations for All Systems.

FISMA requires every agency to develop an information security program that
includes policies and procedures that ensure compliance with agency-determined
minimally acceptable system configuration requirements. NIS T Special
Publication (SP) 800-53, Recommended Security Controls for Federal Information
Systems requires agencies to develop configuration management policy that
addresses purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance. This guidance also
requires agencies to develop procedures to facilitate the implementation of the
configuration management policy. While SBA has established some configuration
policies and procedures that relate to specific systems or networks, the agency had
not developed an integrated agency-wide configuration management policy and
associated procedures.

We found that SBA had not established baseline configurations for all hardware
and software systems. SBA could not provide baseline configurations for many of
SBA's major information systems, including financial systems such as the
[FOIA ex. 2]                                   and      [FOIA ex. 2]
          The Office of Chief Information Officer (OCIO) was also unable to
provide auditors with baseline configurations for all hardware (i.e. switches,
printers).

SBA did not maintain complete inventories of its software and hardware. The
software inventory provided during our review included only client-side software
derived from Systems Management Server (SMS) scans. SMS scans only detect
software on devices that have an active connection to the agency network. Other
software applications, including maiar systems [FOIA ex. 2]
                                      were not included in the software inventory
provided by SBA. The hardware inventory provided to the auditors was also not
complete. It included only hardware with Microsoft operating systems installed
that were directly attached to the SBA network.

NIST Federal Information Processing Standard (FIPS) 200, Minimum Security
Requirements for Federal Information and Information Systems, specifies
minimum security requirements for Federal information and information systems
in seventeen security-related areas. In the configuration management security
area, FIPS 200 states: "Organizations must: (i) establish and maintain baseline
                                                                                    7


configurations and inventories of organizational information systems (including
hardware, software, firmware, and documentation) throughout the respective
system development life cycles; and (ii) establish and enforce security
configuration settings for information technology products employed in
organizational information systems."

Security configuration management provides an important function for
establishing and maintaining secure information system configurations and
provides important support for managing risks in information systems. Without an
agency-wide configuration management policy, individual systems may adopt
configurations that are not risk-appropriate. Without complete hardware and
software inventories, systems or system components may escape the configuration
management process altogether. Systems without configuration baselines may not
implement critical controls and therefore lack the security that is commensurate
with the risk and magnitude of harm resulting from the loss, misuse or
unauthorized modification of the information they contain.

SBA Needs to Improve its Certification and Accreditation Process

During our FISMA review of SBA's C&A process, we identified weaknesses in
SBA's procedures and the identification, application, and assessment of system
baseline security controls. We found that while SBA has developed procedures to
manage its C&A process, these procedures were outdated and were not reflective
of the current NIS T guidance over system security authorization and system
control assessment. Additionally, these procedures had not been revised to
correctly describe the agency-wide POA&M process. Finally, our review of
system C&A packages found that three systems either did not adequately assess
system security controls in accordance with NIST SP 800-53A guidance or the
minimum baseline security controls were not appropriately selected up-front for
assessment.

For two major systems      [FOIA ex. 2]                        we noted the
following:

   •   SBA' S       [FOIA ex. 2]           is rated as a "High" priority system under
       FIPS 199, "Standards for Security Categorization ofFederal Information
       and Information System, " due to the level of confidentiality, integrity and
       availability of the information it supports. While it appeared that the
       appropriate baseline system security controls were selected for this system,
       these baseline controls were only tested at the "Moderate" level during the
       security control assessment phase.
                                                                                    8


   • 	 SBA's [FOIA ex. 2]           was re-certified and accredited in April 2010
       after a significant change in its control environment due to the migration to
       a new hosting provider. During the C&A process, however, SBA did not
       utilize current guidance in NIST SP 800-53 Revision 3, published in
       August 2009, which introduced additional controls and control
       enhancements for application to Federal information systems.

NIST SP 800-53A provides guidelines for assessing the effectiveness of security
controls defined in NIST SP 800-53 based on the system FIPS 199 security
categorization. Systems with higher impact levels require more comprehensive
security control baselines and assessments of these security control baselines at
this higher level.

Additionally, FIPS 200 requires federal agencies to comply with revisions in NIST
Special Publications within one year. The guidance specifically states, "Federal
agencies will have up to one year from the date of final publication to fully
comply with the changes but are encouraged to initiate compliance activities
immediately." Further, OMB Memorandum 10-15 states that for legacy systems
undergoing significant changes, agencies are expected to be in compliance with
the most recent NIS T publications immediately upon deployment of the
information system.

As a result of the weaknesses identified in SBA's C&A program, system controls
in SBA      [FOIA ex. 2] information systems may not be implemented or operating
effectively and control failures may not be appropriately identified for corrective
action.

SBA's POA&M Program Reporting Tool Did Not Adequately Track
Weaknesses, Provide Accurate Estimated Dates for Remediation, and Was
Not Updated Timely

SBA's POA&M reporting tool did not include or sufficiently track all required
fields. OMB M-04-25, "FY 2004 Reporting Instructions for the Federal
Information Security Management Act", identifies eight fields to be tracked by an
agency's POA&M process. In FY 2010, SBA migrated its centralized POA&M
database to its             [FOIA ex. 2]       in order to provide transparency and
accountability over information system vulnerabilities. We commend SBA's
effort to increase visibility of its POA&M and responsibility for the mitigation of
system vulnerabilities. However, the current SBA reporting tool did not
adequately track the following risk mitigation fields: funding resources, changes to
milestones, how the weakness was identified (i.e. source), and the status.
                                                                                      9


During our FISMA review of SBA's POA&M process, we found that weaknesses
were not adequately managed and that SBA did not sufficiently mitigate
vulnerabilities by the estimated remediation date. For two major SBA systems,
vulnerabilities either detected through internal system scans or IG reports were not
placed into the system's POA&M for remediation. Additionally, SBA closed two
"Medium" risk vulnerabilities for its       [FOIA ex. 2]         without completing
the proposed actions to remediate the vulnerabilities. Finally, for three major SBA
systems, initial estimated remediation dates for system vulnerabilities were
missed. For example,       [FOIA ex. 2]             had four "High" risk
vulnerabilities still umesolved from its C&A in 2006. These vulnerabilities were
initially scheduled to be completed by March 2007.

We also found that SBA's POA&M reporting tool was not updated on a timely
basis. System owners were often non-responsive to OCIO requests for quarterly
system vulnerability status updates. For example, system owners for four major
SBA systems did not respond to OCIO information requests for over six months.

OMB Memorandum 04-25 provides guidance to agencies to implement their
agency-wide POA&M process. It requires that POA&Ms be established for all
agency information systems with identified vulnerabilities and that security costs
for a system be linked to its security performance. POA&Ms should include all
known security weaknesses, including weaknesses identified in audits and critical
infrastructure vulnerability assessments. The memorandum also establishes
mandatory fields and information agency POA&Ms must include and requires
program officials to update the agency Chief Information Officer (CIO) on their
progress on a quarterly basis.

The purpose of a POA&M program is to assist agencies in identifying, assessing,
prioritizing, and monitoring the progress of corrective efforts for security
weaknesses found in programs and systems. Without a comprehensive,
documented, and functioning POA&M process, the agency will be unable to link
security costs to security performance and weaknesses may be accidently omitted
or closed without satisfactory remediation exposing the SBA's systems to
significant risk.

SBA's Continuity of Operations Planning and Testing Program for Mission
Critical Information Systems Needed Significant Improvement

During our FISMA review of SBA's COOP Program, we found that system
disaster recovery plans had not been developed or tested. SBA was unable to
provide evidence that it had developed system contingency plans fOl[ex. 2iDf its [ex. 2]
major systems. Additionally, SBA documentation supported that only [ex. 2]major
systems received recovery tests during the year.
                                                                                     10



SBA SOP 90-47-2 "Automated Information System Security Program" states that
a disaster recovery plan must be prepared and tested semi-annually for each major
application system, each regional and district accounting information system, the
Office of Financial Operations, and SBA's mainframe computer center.
Additionally, NIST SP 800-34, Contingency Planning Guide for Federal
Information Systems, states that information system contingency plan testing is a
critical element of a viable contingency capability. Testing enables plan
deficiencies to be identified and addressed by validating one or more of the system
components and the operability of the plan.

Without documented system recovery plans that have been tested to ensure their
effectiveness, SBA may be unable to restore its    [FOIA ex. 2]  majOr
information systems within established timeframes.

SBA IT Security Contractors Were Permitted Access to Sensitive
Information and Secured Areas Without Required Clearances

While performing our FISMA review, we received an anonymous complaint
alleging that contractors located in the IT security division were performing work
on behalf of the agency without having obtained the necessary security clearances.
In response to this allegation, we compared OCIO IT Security contractor start
dates with background clearance forms provided by OCIO and found that 17 of 32
contractors performed work on behalf of the agency prior to being cleared. Some
of these contractors were operating in SBA's security operations center which
allowed physical access to sensitive information and systems.

Additionally, our review of system POA&Ms identified two ongoing
vulnerabilities related to contractor background investigations. Specifically, the
POA&M for SBA's           [FOIAex.2]      identified that contractors had not
undergone SBA background investigations and their company-sponsored
background investigations did not meet Federal criteria. Additionally, the
POA&M for SBA's             [FOIA ex. 2]         identified that background
investigations were not performed for contractor personnel responsible for daily
system operations.

OMB Circular A-l30 requires Federal agencies to screen individuals applying for
access to government data and systems based on the level of risk presented by
their access. SBA SOP 90-47-2 classifies all SBA data as sensitive and requires
all contractor personnel to undergo background investigations. In addition,
contractor personnel occupying positions designated as critical-sensitive cannot be
given access to sensitive data until an appropriate security clearance has been
granted. SBA requires that SBA Form 1228, Computer Access
                                                                                 11 



Clearance/Security, be used to request all network account access for new
contractor employees.

Despite SBA's requirement that contractors occupying positions sensitive in
nature must receive prior clearance, this requirement was not adhered to for many
of the contractors performing IT security functions for the agency. Without
ensuring that contractors meet the agency standards for character and integrity,
SBA is exposing itself to increased risk for unauthorized use and/or disclosure of
sensitive and personally identifiable information.

SBA Needs to Improve Oversight of the IT Security Contract

We noted that several of our findings relating to FISMA noncompliance fell
within the existing performance work statement between SBA and its IT security
contractor. These areas included maintaining system inventories, coordinating
ISAs, configuration management and control, performing certification and
accreditations of SBA systems, managing SBA's POA&M process, and providing
support to SBA in the development of continuity of operation plans. Under the
contract, Glacier Technologies, LLC is also responsible for incident response,
security awareness training and the continuous monitoring of security controls.

In September 2010, the Acting Chief Information Security Officer performed an
analysis of SBA's contract with Glacier Technologies, LLC and found that many
of the contract requirements were not being satisfied. As a result, SBA issued
recommendations to the contractor and established milestones for compliance.

We commend SBA on taking actions to ensure that its IT security contractor meet
the provisions of its contract. However, the contract provides for SBA to conduct
continuous quality assurance reviews and quarterly performance reviews of the
above activities. We believe that ongoing oversight is needed to ensure all work
products meet established Federal quality standards.

RECOMMENDATIONS

We recommend that the Chief Information Officer:

  1. 	   Update the list of Major Systems to include all the interfaces between each
         system and all other systems and networks, including those not operated by,
         or under the control of the agency and obtain written Interconnection
         Security Agreements for every SBA system that has an interconnection to
         another system.

 2. 	    Establish a program at SBA to manage, control and monitor system 

         interconnections throughout their lifecycle. The program should 

                                                                                    12


       encompass planning, establishing, maintaining and terminating system
       interconnections, including enforcement of security requirements.

3. 	   Develop configuration management policies and procedures that address
       purpose, scope, roles, responsibilities, management commitment,
       coordination among organizational entities, and compliance.

4. 	   Develop and maintain a centralized inventory of all agency hardware and
       software.

5. 	   Develop and document baseline configurations for each information system
       and maintain the baseline under configuration control.

6. 	   Revise the SBA Certification and Accreditation Program Description
       procedural document to reflect the risk management framework approach
       established in NIST SP SOO-37, Rev. 1 and the current POA&M process.

7. 	   Re-evaluate the technical, operational and management controls of
        [FOIA ex. 2]       and[FOIA ex. 2]at the appropriate FIPS 199 level using
       guidance provided by NIST SP SOO-53 and NIST SP SOO-53A.

S. 	   Modify the POA&M reporting tool to comply with the requirements set
       forth in OMB Memorandum 04-25.

9. 	   Develop and test system disaster recovery plans for all of SBA's major
       systems at least annually and initiate any necessary corrective actions based
       on test results.

10. 	 Enforce SOP 90-47 2 requirements for contractor background
      investigations and perform periodic reviews to ensure that SBA contractors
      have completed the clearance process prior to accessing sensitive
      information.

11. 	 Perform continuous quality assurance reviews of deliverables and qualierly
      reviews of IT security contractor performance to ensure all applicable areas
      of OMB and NIST compliance criteria are met.
                                                                                    13


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On December 23,2010, we provided the Chief Information Officer with the draft
report for comment. On January 21,2011, the Chief Information Officer
submitted a formal response, which is contained in its entirety in Appendix I. The
response expressed concurrence with all of the recommendations presented in this
report.


ACTIONS REQUIRED

Please provide your management decision for each recommendation on the
attached SBA forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your decision should identify the specific action( s) taken or
planned for each recommendation and the target date( s) for completion.

We appreciate the courtesies and cooperation of the OCIO during this audit. If
you have any questions concerning this report, please call me at (202) 205-i(ex. 2] or
Jeffrey Brindle, the Director, Information Technology and Financial Management
Group at (202) 205- [ex. 2]
                                                                                           14


  APPENDIX I. MANAGEMENT COMMENTS 





                          u.s. SMALL BUSINESS ADMINISTRATION
                                    WASHINGTON,   D.C. 20416




Date:           January 21,2011

To:             Peter L. McClintock
                Deputy Inspector General


From: 	         Paul T. Christy
                Chief Information Officer

Subject: 	      Draft Report on the Audit of SBA' s Compliance with the
                Federal Information Security Management Act for FY
                2010


  The Office of Chief Information Officer has reviewed and concurs with the findings
  posted in the draft report. Further explanation of corrective action will be provided in the
  Management Decision.

  If you require additional information, please contact Ja'Nelle DeVore on 202-205-[ex. 2]
